No. 20-1767

In the
Supreme Court of the United States
_________
SARASOTA WINE MARKET, LLC, ET AL.,
Petitioners,
v.
ERIC S. SCHMITT,
ATTORNEY GENERAL OF MISSOURI, ET AL.,
Respondents.
_________
On Petition for Writ of Certiorari to
the United States Court of Appeals for the
Eighth Circuit
_________
BRIEF OF 22 WINE CONSUMERS AS AMICI
CURIAE IN SUPPORT OF PETITIONERS
_________
J. GREGORY TROUTMAN
Counsel of Record
TROUTMAN LAW OFFICE, PLLC
4205 Springhurst Boulevard,
Suite 201
Louisville, KY 40241
502-412-9179
jgtatty@yahoo.com

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES ........................................ ii
INTEREST OF THE AMICI CURIAE .......................... 1
SUMMARY OF THE ARGUMENT ............................... 2
ARGUMENT .................................................................. 3
I.
Certiorari is needed to bring certainty
and finality to the question of whether
discriminatory state alcoholic beverage
control laws must be analyzed under
both the Commerce Clause and the
Twenty-first Amendment .............................. 3
II.

The market changes resulting from
the Covid-19 pandemic and Missouri’s
responses thereto highlight the
discriminatory effects of the
challenged statutes ………….……….………7

CONCLUSION .......................................................... 8
APPENDIX A. Names of Amici ........................... A-1

ii
TABLE OF AUTHORITIES
CASES:
Granholm v. Heald,
544 U.S. 460 (2005)……………………….passim
Pike v. Bruce Church, Inc.,
397 U.S. 137 (1970)………………………..……..4
S. Dakota v. Wayfair, Inc.,
585 U.S. ___, 138 S. Ct. 2080 (2018)……….…..4
Tennessee Wine & Spirits Retailers Ass'n v.
Thomas,
588 U.S. ____, 139 S. Ct. 2449 (2019)……..5, 6
CONSTITUTIONS AND STATUTES:
U.S. CONST., amend. XXI ............................ passim
U.S. CONST., art. I, § 8, cl. 3………………….passim

1
INTERESTS OF AMICI CURIAE1
Wine consumers nationwide2 desire to have access to wines produced far beyond the borders of
their own particular localities. However, some consumers are stymied in their search for rare and
collectible wines because of discriminatory laws
that prevent out-of-state retailers from shipping
wine directly to them. Compounding this problem,
states like Missouri prohibit out-of-state retailers
from obtaining the necessary license required to
serve Missouri customers. Such a license, readily
available to in-state interests, would allow direct
shipments of wine not otherwise available to Missouri consumers, effectively preventing out-ofstate retailers from participating in the Missouri
marketplace.
These wine consumers and millions of others
just like them are practically prevented from purchasing wine selections that are not produced or
available in Missouri in favor of protectionist laws
that run afoul of the dormant element of the Commerce Clause. In Missouri, a retailer must establish a physical presence in the state in order to be
afforded the benefit of shipping wine directly to
consumers, including internet sales. This heavy
Pursuant to Supreme Court Rule 37.6, counsel for
amici curiae states that no counsel for any party authored
this brief in whole or in part or made any monetary contribution. Pursuant to Supreme Court Rule 37.2, written consent to file was obtained from counsel for all parties more
than 10 days in advance of the filing deadline.
1

2

The names of all Amici are listed in the Appendix.

2
burden effectively and impermissibly prevents
out-of-state retailers from participating in the Missouri marketplace.
The amici curiae respectfully request this
Court grant Petitioners’ Petition for Writ of Certiorari.
SUMMARY OF ARGUMENT
The negative, or dormant, Commerce Clause
prohibits discrimination by any state in favor of intrastate commerce over interstate commerce. The
Twenty-first Amendment provides the several
states with the ability to regulate the “transportation or importation” of alcohol, but not in such a
manner that the regulation becomes an effective
bar to interstate commerce.
Wine, like many areas of commerce, has
shifted toward online retail. The Missouri residency and in-state presence requirements represent a historical anachronism. Online retail portals have brought about a radical paradigm shift
by providing almost unlimited consumer choices
that were beyond comprehension when the states
adopted the Twenty-first Amendment. To prevent
out-of-state retailers from shipping directly to consumers by requiring in-state residency effectively
bars those retailers from the Missouri marketplace. Such a bar is impermissible under the
Court’s present Commerce Clause jurisprudence.
Additionally, states rely on their claimed interests in promoting and protecting the public health
and welfare of citizens when defending even onerous regulations that clearly divide access to a mar-

3
ketplace between intrastate and interstate commerce. Those claims are increasingly dubious and
incongruent with this Court’s jurisprudence especially considering that Missouri responded to the
potential loss of by-the-drink alcohol sales during
the Covid-19 pandemic by allowing to-go alcohol
sales. In fact, Missouri very recently adopted legislation to permanently codify the allowance of togo cocktails from restaurants. The state should, at
minimum, be required to make an evidentiary
showing that its discriminatory practice is necessary, and not a pretext for discrimination, and the
purpose of the discriminatory practice cannot be
achieved by nondiscriminatory legislation.
ARGUMENT
Certiorari is needed to bring certainty
and finality to the question of whether
discriminatory state alcoholic beverage control laws must be analyzed under both the Commerce Clause and the
Twenty-first Amendment.

I.

This Court has made it clear that the authority
granted to states by the Twenty-first Amendment3
to regulate the sale of alcohol is limited by the
principle of nondiscrimination contained within
the Commerce Clause4. This Court crystalized the
point in holding that a state may not compel an
out-of-state entity to establish in-state residence
simply in order to gain access to the marketplace.
Granholm v. Heald, 544 U.S. 460, 475 (2005). To
3

4

U.S. CONST., amend. XXI.
U.S. CONST., art. I, § 8, cl. 3.

4
do so would create market inefficiencies, requiring
retailers to establish residency within Missouri
when all of the infrastructure necessary to sell
wine online and deliver it directly to consumers already exists where the out-of-state retailer operates. The Court views state statutes requiring
business operations to be moved in-state when the
same operations already operate more efficiently
elsewhere with suspicion. Pike v. Bruce Church,
Inc., 397 U.S. 137, 145 (1970).
The challenged Missouri statutes find their
origin in legislation adopted in the 1930s following
the end of Prohibition. At that time, substantially
all retail transactions occurred in face-to-face dealings. Granted, consumers could purchase goods
from catalogs like Sears and Montgomery Ward
but such sales represented a minority of annual
transactions. Even then, shipping of mail-order
goods could take days or weeks.
The growth of internet and online retail portals have resulted in many of the policies underlying post-Prohibition era laws to become an anachronism. Online retail portals have become a pervasive outlet for interstate commerce which brings
consumers and marketplaces closer than ever before, even when they are physically distant. S. Dakota v. Wayfair, Inc., 585 U.S. ___, 138 S. Ct. 2080,
2095 (2018). This technology allows consumers to
purchase any number and variety of goods without
ever stepping foot into a retail store. This same
technology also allows, in many cases, for something unheard of in the 1930s: same-day delivery.
Yet, despite the many changes to the commercial

5
marketplace, states like Missouri still apply a
1930s regulatory model to 21st century commerce.
The dormant Commerce Clause requires that
interstate commerce not be unfairly burdened or
cut out of a market in favor of intrastate commerce. The simple fact that a state wishes to regulate alcohol sales in a particular manner under the
Twenty-first Amendment does not exempt those
regulations from scrutiny under the Commerce
Clause. Heald, 544 U.S. at 466.
If a retailer chooses not to engage in online
sales, Missouri’s discriminatory laws will not
make any difference to that retailer because it cannot lose business by being shut out of a market
from which it volitionally abstained. However, for
the many retailers who are already selling wine
online, the Missouri residence requirement serves
only to force those retailers to establish a brickand-mortar presence in Missouri, secure a managing officer who resides in Missouri, and then sell
from that location if they wish to participate in the
marketplace. Such requirements lead to market
redundancies which are both duplicative and inefficient.
In order to determine whether a discriminatory regime passes muster under the Commerce
Clause, courts are instructed to both consider “concrete evidence” that is established on the record,
and then only allow discriminatory requirements
for which there is no sufficient nondiscriminatory
alternative. Heald, 544 U.S. at 492-93; Tennessee
Wine & Spirits Retailers Ass'n v. Thomas, 588 U.S.
____, 139 S.Ct. 2449, 2474 (2019).

6
Such consideration recently led this Court to
hold that Tennessee’s two-year residency requirement for a retail alcohol license application was
unconstitutional, in part because the state failed
to provide any evidence that the requirement,
which is facially discriminatory to any out-of-state
retailer, is both sufficiently connected to the protection of public health and safety and that no nondiscriminatory alternative would sufficiently protect those interests. Thomas, 139 S.Ct. at 2474.
It is unclear as to how the Eighth Circuit concluded that Missouri’s residency licensure requirement is either adequately connected to the advancement of public health or that no nondiscriminatory alternative would adequately protect that
interest, as there was no concrete evidence in the
district court record. The Eighth Circuit asserts,
without supporting evidence, that Missouri’s ability to regulate in-state retailers is sufficient to
meet the “exacting standard” required to allow a
discriminatory practice to stand under Commerce
Clause jurisprudence. Heald, 544 U.S. at 492.
At the very least, Missouri should be required
to demonstrate how its discriminatory law requiring retailers to have established in-state residence
in order to ship wine to consumers benefits the
public health and that no nondiscriminatory alternative would serve a similar purpose. In essence,
Missouri should be required to demonstrate that
no reasonable means would allow it to effectively
regulate out-of-state retail establishments.

7
The market changes resulting from
the Covid-19 pandemic and Missouri’s
responses thereto highlight the
discriminatory effects of the
challenged statutes.

II.

Finally, in a recent development that occurred
after the Petition for Writ of Certiorari was filed
by Petitioners, Missouri made the to-go retail sale
of cocktails permanently available to retail customers5. Prior to rule changes enacted during the
COVID-19 pandemic, such an arrangement was illegal and largely unthinkable. Missouri’s initial
reaction to by-the-drink establishments selling togo cocktails was to require any establishment
wishing to do so to sell mix-at-home kits in order
to prove that the liquor sold had not been opened
prior to sale. In the wake of such massive changes
to the alcohol sales landscape in Missouri, as ratified by the state legislature and signed into law by
the governor, heightened skepticism should be
turned toward any claim that Missouri has a reasonable claim that its in-state residence requirement is sufficiently connected to the public health,
or that the state does or should promote temperance.

Dori Olmos, AP, Missouri Gov. Parson signs bill making to-go cocktails permanent, KSDK.com, (July 7, 2021),
https://www.ksdk.com/article/news/local/missouri-parsonbill-making-to-go-cocktails-permanent/63-1f54a8d5-2aff4a63-98e8-20aad0faf14c (last visited July 14, 2021).
5

8
CONCLUSION
For the foregoing reasons, this Court should
grant the Petitioners’ Petition for Writ of Certiorari in this matter.
Respectfully submitted,
J. GREGORY TROUTMAN
Counsel of Record
TROUTMAN LAW OFFICE, PLLC
4205 Springhurst Boulevard,
Suite 201
Louisville, KY 40241
502-412-9179
jgtatty@yahoo.com
July 2021

A-1
APPENDIX A
Kostar and Julie Arger – Reno, NV
Jerry and Fay Bainbridge – Sarasota, FL
Sharon Block – Long Island, NY
Kitty and Larry Buckle, MD – Carmel, IN
John Davis – Bloomington, IN
Ronald B. Dixon – Bloomington, IN
Terrence French – Missouri
Larry and LaNae Gralla – Reno, NV
Frank Hess – Bloomington, IN
Gregory Kasza – Bloomington, IN
Bob Kunkle – Charlotte, NC
Manuel Hernandez Martin – Bloomington, IN
Maureen and Greg Redish, MD – Dallas, TX
Mitchell Rubenstein – Boca Raton, FL
Michael Schlueter – St. Louis, MO
Richard Shockley – Bloomington, IN
Laurie Silvers – Boca Raton, FL

